                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                  CL0SEOL.T MEMORANDUM




        An allegation was received that certain images in the subject's1 proposals2 were derived
from the work of other^.^ We referred the matter. The university carried out an inquiry and
madk no finding of research misconduct. The university accepted the Subject's explanation that
the images were his own work, and that the images were for a different biological specimen than
identified in the allegation. We could not obtain higher resolution image data files4 to
unambiguously establish either the identity or the difference between the figures, and we
therefore are unable to find support for the allegation.

       Accordingly, this case is closed.
